CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers

8.90%

APR for Cash Advances

8.90%

Penalty APR and When it Applies

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.
None

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau

8.90%

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

None

Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee

None
None
1.00% of each transaction in U.S. dollars

- Transaction Fee for Purchases

None

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Up to $10.00
None
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
SEE NEXT PAGE for more important information about Your Account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

00100803-MXC20-P-1-081717 (MXC201-E)

Other Fees & Disclosures:
Late Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less, if You are 10 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less. If Your Account is subject to a Returned
Payment Fee, the fee will be charged to Your Account when a payment is returned for any reason.
Card Recovery Fee:
$35.00. If Your Account is subject to a Card Recovery Fee, a fee will be charged for any expenses involved in the
recovery of the Card.
Card Replacement Fee:
$10.00. If Your Account is subject to a Card Replacement Fee, a fee will be charged for each replacement Card that is
issued to You for any reason.
Document Copy Fee:
$5.00 . If Your Account is subject to a Document Copy Fee, except as limited by applicable law, a fee may be charged to
Your Account for each copy of a sales draft or statement that You request (except when the request is made in
connection with a billing error made by the Credit Union).
Emergency Card Replacement Fee:
$35.00. If Your Account is subject to an Emergency Card Replacement Fee, a fee will be charged to Your Account for
each emergency replacement Card that is issued to You.
PIN Replacement Fee:
$5.00. If Your Account is subject to a PIN Replacement Fee, a fee will be charged to Your Account whenever You request
a new PIN number for Your Account.
Rush Fee:
$35.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Statement Copy Fee:
$5.00 . If Your Account is subject to a Statement Copy Fee, except as limited by applicable law and when the request is
made in connection with a billing error made by the Credit Union, a fee may be charged to Your Account for each copy of
a sales draft or statement that You request.
Collection Costs:
For Alabama Borrowers: After default and upon referral to an attorney, who is not an employee of the Credit Union, You
agree to pay all costs of collecting the amount You owe under this Agreement, including, if the unpaid balance under this
plan is greater than $300.00 at the time of collection, reasonable attorney's fees.
For All Other Borrowers: You agree to pay all costs of collecting the amount You owe under this Agreement, including
court costs and reasonable attorney's fees.
Periodic Rates:
The Purchase APR is 8.90% which is a monthly periodic rate of
The Balance Transfer APR is 8.90% which is a monthly periodic rate of
The Cash Advance APR is 8.90% which is a monthly periodic rate of

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

.
.
.

00100803-MXC20-P-1-081717 (MXC201-E)

